Case 4:17-cr-00669 Document 100 Filed on 11/26/19 in TXSD Page 1 of 6
A0245B (Rev. 09/19)

United States District Court
Southern District of Texas

Judgment in a Criminal Case
Sheet 1

ENTERED

United States District Court

November 27, 2019

SOUTHERN DISTRICT OF TEXAS
Holding Session in Houston

United States of America

David J. Bradley, Clerk

JUDGMENT IN A CRIMINAL CASE

V.

JULIA ANN POFF

CASE NUMBER: 4:17CR00669-001
I SM NUMBER: 30835-479
Pius A Saper, Thomas Brent Mayr
Defendant’s Attorney

THE DEFENDANT:
El pleaded guilty to count(s) 7SSon July 1.2019.___________________________________
□ pleaded nolo contendere to count(s)__________________________________________
which was accepted by the court.
□ was found guilty on count(s)________ _______________________________________
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
Nature of Offense
18 U.S.C. §§ 844(d) and Transportation of explosives with the intent to kill, injure and intimidate

Offense Ended
10/02/2016

Count
7SS

2

□ See Additional Counts of Conviction.
The defendant is sentenced as provided in pages 2 through 6 of this judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s)_________________________________________________________
El Count(s) remaining

.are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
November 18, 2019
Date of Imposition of Judgment

Signature of Judge
VANESSA D. GILMORE
UNITED STATES DISTRICT JUDGE
Name and Title of Judge

Date

11 llM H

;

1
Case 4:17-cr-00669 Document 100 Filed on 11/26/19 in TXSD Page 2 of 6
AO 245B (Rev. 09/19}

'

Judgment in a Criminal Case
Sheet 2 - Imprisonment
Judgment — Page

DEFENDANT:
CASE NUMBER:

2

of

6

JULIA ANN POFF
4:17CR00669-001

IMPRISONMENT
The defendant is hereby committed to the custody of th<s Federal Bureau of Prisons to be imprisoned for a total term
of: 120 months.
This term consists of ONE HUNDRED TWENTY (120) MONTHS as to Count 7SS.

i

□ See Additional Imprisonment Terms.
0 The court makes the following recommendations to the Bureau of Prisons:
The defendant be designated to a facility to receive appropriate medical care and as close to her family in Texas as
possible.
0 The defendant is remanded to the custody of the United States Marshal.

i

i

I

□ The defendant shall surrender to the United States Marshal for this district:
□ at

i

on

□ as notified by the United States Marshal.

□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 p.m. on ____________________
□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.
:
!

I

RETURN
I have executed this judgment as follows:

i

l

!
<
i
i

Defendant delivered on
at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

y

Case 4:17-cr-00669 Document 100 Filed on 11/26/19 in TXSD Page 3 of 6
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 3 - Supervised Release
Judgment — Page

DEFENDANT:

JULIA ANN POFF

CASE NUMBER:

4:17CR00669-001

3

of

6

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of: 3 years.
This term consists of THREE (3) YEARS as to Count 7SS.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future substance abuse.
(check ifapplicable)
□
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of restitution, (check
ifapplicable)
13 You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you reside, work, are a
student, or were convicted of a qualifying offense, (check ifapplicable)
□
You must participate in an approved program for domestic violent, (check ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
S

See Special Conditions of Supervision.

As part of your supervised release, you must comply with the following standird conditions of supervision. These conditions are imposed because they
establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation officers to keep informed,
report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.

13.
14.

15.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your release from
imprisonment, unless the probation officer instructs you to report to a di fferent probation office or within a different time frame.
After initially reporting to the probation office, you will receive instructi Dns from the court or the probation officer about how and when you must
report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the court or
the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living arrangements (such
as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying the probation officer in advance
is not possible due to unanticipated circumstances, you must notify th; probation officer within 72 hours of becoming aware of a change or
expected change.
You must allow the probation officer to visit you at any time at your he me or elsewhere, and you must permit the probation officer to take any
items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from doing so. If
you do not have full-time employment you must try to find full-time em ployment, unless the probation officer excuses you from doing so. If you
plan to change where you work or anything about your work (such as your position or your job responsibilities), you must notify the probation
officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer within 72 hours of oecoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been convicted of a
felony, you must not knowingly communicate or interact with that person without first getting the permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was designed,
or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without first getting
the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may require you to
notify the person about the risk and you must comply with that instruction. The probation officer may contact the person and confirm that you
have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.
If restitution is ordered, the defendant must make restitution as ordered by the Judge and in accordance with the applicable
provisions of 18 U.S.C. §§ 2248, 2259, 2264, 2327,3663A and/or 3664. The defendant must also pay the assessment imposed in
accordance with 18 U.S.C. § 3013
You must notify the court of any material change in your economic circumstances that might affect your ability to pay restitution,
fines, or special assessments.

Case 4:17-cr-00669 Document 100 Filed on 11/26/19 in TXSD Page 4 of 6
A024SB (Rev. 09/19)

;

Judgment in a Criminal Case
Sheet 3D - Supervised Release
Judgment — Page

DEFENDANT:
CASE NUMBER:

4

of

6

JULIA ANN POFF
4:17CR00669-001

SPECIAL CONDITIONS OF SUPERVISION
i

You must participate in a mental-health treatment program e nd follow the rules and regulations of that program. The
probation officer, in consultation with the treatment provider, will supervise your participation in the program, including
the provider, location, modality, duration, and intensity. You must pay the cost of the program, if financially able.
You must take all mental-health medications that are prescribed by your treating physician. You must pay the costs of the
medication, if financially able.
You must provide the probation officer with access to any requested financial information and authorize the release of any
financial information. The probation office may share financial information with the U.S. Attorney’s Office.
You must not incur new credit charges or open additional lines of credit without the approval of the probation officer.

;
:

;
!

i

!

i;

;

Case 4:17-cr-00669 Document 100 Filed on 11/26/19 in TXSD Page 5 of 6
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties
Judgment — Page

DEFENDANT:
CASE NUMBER:

5

of

6

JULIA ANN POFF
4:17CR00669-001

CRIMINAL MONET ARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment

TOTALS

$100.00

Restitution
$9,700

Fine
$

AVAA Assessment*
$

JVTA Assessment**
$

□ See Additional Terms for Criminal Monetary Penalties.
O The determination of restitution is deferred until
be entered after such determination.

■■ 1

An Amended Judgment in a Criminal Case (AO 245C) will

0 The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.
Name of Payee
Supplemental Nutrition Assistance Program

$

Restitution Ordered
$9,700

$

$9.700

Total l-ioss***

□ See Additional Restitution Payees.
TOTALS

Priority or Percentage

s

I
;
1
;

0

Restitution amount ordered pursuant to plea agreement $9.700

m

The defendant must pay interest on restitution and a fine of mo:-e than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ the interest requirement is waived for the □ fine □ restitution.

!

□ the interest requirement for the □ fine □ restitution is modified as follows:

:
'I

□
♦

Based on the Government's motion, the Court finds that reasonable efforts to collect the special assessment are not likely to be
effective. Therefore, the assessment is hereby remitted.

Amy, Vicky, and Andy Child Pornography Victim Assistance A ct of 2018, Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
*** Findings for the total amount of losses are required under Chapters 109A, 110, U0A,and 113AofTitle 18 for offenses committed
on or after September 13,1994, but before April 23, 1996.

Case 4:17-cr-00669 Document 100 Filed on 11/26/19 in TXSD Page 6 of 6
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Sheet 6 - Schedule of Payments
Judgment — Page

DEFENDANT:
CASE NUMBER:

6

of

6

JULIA ANN POFF
4:17CR00669-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

B

□

Lump sum payment of $

□
□

not later than_________
or
in accordance with □ C, □ D, □ E, or □ F below; or

0

Payment to begin immediately (may be combined with □ C, □ D, or 0 F below); or

due immediately, balance due

C

□

Payment in equal
to commence__

_installments of$____________
after the date of this j jdgment; or

D

□

Payment in equal
to commence__

installments of$_
over a period of______
after release from imprisonment to a term of supervision; or

over a period of

E

□

Payment during the term of supervised release will commence within
after release from imprisonment.
The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

0

Special instructions regarding the payment of criminal monetary penalties: Payments of at least $25 per quarter while
imprisoned and monthly installments of at least $200 to commence 30 days after release to a term of supervision.
Payable to:

Clerk, U.S. District Court
Attn: Finance
P.O.Box 61010
Houston, TX 77208

Unless the court has expressly ordered otherwise, if this judgment inposes imprisonment, payment of criminal monetary penalties is
due during the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several

Case Number
Defendant and Co-Defendant Names
(including defendant number-)

Total Amount

Joint and Several
Amount

□

See Additional Defendants and Co-Defendants Held Joint and Several.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Corresponding Payee,
if appropriate

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA
assessment, (5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs,
including cost of prosecution and court costs.

Case 4:17-cr-00669 Document 101 Filed on 11/26/19 in TXSD Page 1 of 4

!

A0245B (Rev. 09/19)

Judgment in a Criminal Case
Attachment (Page I) — Statement of Reasons

Not for Public Disclosure
Judgment— Page

DEFENDANT:
CASE NUMBER:
DISTRICT

1

of

4

JULIA ANN POFF
4:17CR00669-001
SOUTHERN DISTRICT OF TEXAS

STATEMENT OF REASONS
(Not for Public Disclosure)
Sections I, II, III, IV, and VII ofthe Statement ofReasonsform must be completed in allfelony and Class A misdemeanor cases.
I.

COURT FINDINGS ON PRESENTENCE INVESTIGATION REPORT
A. IE The court adopts the presentence investigation repoit without change.
B. □ The court adopts the presentence investigation repoit with the following changes: (Use Section Viu ifnecessary)
(Check all that apply and specify court determination, findings, or comments, referencing paragraph numbers in the presentence report.)

:
I
■

1.

D

Chapter Two of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly summarize the changes,
including changes to base offense level, or specific offense characteristics)

2.

Cl

Chapter Three of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly summarize the changes.
including changes to victim-related adjustments, role in the offense, obstruction ofjustice, multiple counts, or acceptance ofresponsibility)

3.

O

Chapter Four of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly summarize the changes,
including changes to criminal history category or scores, career offender status, or criminal livelihood determinations)

4.

CD

Additional Comments or Findings: (include comments or factual findings concerning any information in the presentence report, including
information that the Federal Bureau ofPrisons may rely on when it makes inmate classification, designation, orprogramming decisions: any other
rulings on disputedportions of the presentence investigation report; identification of those portions ofthe report in dispute butfor which a court
determination is unnecessary because the matter will not affect ientencing or the court will not consider it)

[

i

i
i
i

!

i

C. □ The record establishes no need for a presentence investigation report pursuant to Fed.R.Crim.P. 32.
Applicable Sentencing Guideline: (ifmore than one guideline applies, list the guideline producing the highest offense level)___________________
II. COURT FINDING ON MANDATORY MINIMUM SENTENCE (Check all that apply)
A.

ID

B.

D

C.

IS

t

!

i
;

One or more counts of conviction carry a mandatory minimum term of imprisonment and the sentence imposed is at or above the applicable mandatory
minimum term.
One or more counts of conviction carry a mandatoiy minimum term af imprisonment, but the sentence imposed is below a mandatory minimum term
because the court has determined that the mandatory minimum term daes not apply based on:
D findings of fact in this case: (Specify)_______________________________________________________________________________
□ substantial assistance (18 U.S.C. § 3553(e))
O the statutory safety valve (18 U.S.C. § 3553(f))
No count of conviction carries a mandatory minimum sentence.

III COURT DETERMINATION OF GUIDELINE RANGE: (BEFORE DEPARTURES OR VARIANCES)
Total Offense Level: 36________________________
Criminal History Category: I____________________
Guideline Range: (after application of§5GI. I and §5GI.2) 120
to 3

Supervised Release Range: 1
Fine Range: $40,000______
0

»
H

to $250.000

Fine waived or below the guideline range because of inability to pay.

to 120
years

months

Case 4:17-cr-00669 Document 101 Filed on 11/26/19 in TXSD Page 2 of 4
AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Attachment (Page 2) - Statement of Reasons

Not for Public Disclosure
Judgment — Page

DEFENDANT:
CASE NUMBER:
DISTRICT

2

of

4

JULIA ANN POFF
4:17CR00669-001
SOUTHERN DISTRICT OF TEXAS

STATEMENT OF REASONS
IV. GUIDELINE SENTENCING DETERMINATION (Check all that apply)
A.
B.

0
D

C.
D.

O
O

The sentence is within the guideline range and the difference between the maximum and minimum of the guideline range does not exceed 24 months.
The sentence is within the guideline range and the difference betwee l the maximum and minimum of the guideline range exceeds 24 months, and the
specific sentence is imposed for these reasons:_____________________(Use Section VIII ifnecessary)
The court departs from the guideline range for one or more reasons provided in the Guidelines Manual. (Also complete Section V)
The court imposed a sentence otherwise outside the sentencing guideline system (i.e., a variance). (Also complete Section VI)

V. DEPARTURES PURSUANT TO THE GUIDELINES MANUAL (Ifapplicable)
A. The sentence imposed departs: (Check only one)
□ above the guideline range
D below the guideline range
B.

Motion for departure before the court pursuant to: (Check all that apply and specify reason(s) in sections C and D)
1.

Plea Agreement
O binding plea agreement for departure accepted by the court
D plea agreement for departure, which the court finds to be reasonable
O plea agreement that states that the government will not oppose a defense departure motion

2.

Motion Not Addressed in a Plea Agreement
D government motion for departure
Q defense motion for departure to which the government did not object
LJ defense motion for departure to which the government objected
Cl joint motion by both parties

3.

Other

□
C.
D
□
Ci
O
O
D
□
D
Cl
0
O
O

4A1.3
5H1.1
5HI.2
5H 1.3
5H1.4
5H1.S
SHI.6
5H1.I1
SHI. II
5K1.1
5K2.0

Other than a plea agreement or motion by the parties for departure

Reasons for departure: (Check all that apply)
Criminal History Inadequacy
Age
Education and Vocational Skills
Mental and Emotional Condition
Physical Condition
Employment Record
Family Tics and Responsibilities
Military Service
Charitable Service/Good Works
Substantial Assistance
Aggravating/Mitigating Circumstances

□
D
Cl
O
D
□
Cl
O
O
CD
Cl

5K2.1
5K2.2
5K2.3
5K2.4
5K2.5
5K2.6
5K2.7
5K2.8
5K2.9
5K2.I0
5K2.11

Death
Physical Injury
Extreme Psycho ogical Injury
Abduction or Ur lawful Restraint
Property Damag: or Loss
Weapon
Disruption of Government Function
Extreme Conduct
Criminal Purpos;
Victim’s Conduct
Lesser Harm

D 5K2.12
Cl 5K2.13
□ SK2.14
□ 5K2.16
Cl SK2.17
□ 5K2.I8
Cl 5K2.20
O 5K2.21
Cl 5K2.22
Cl 5K2.23
Cl SK2.24
Cl 5K3.1
Other Guideline Reason(s) for Departure, to include departures pursuant to the commentary in the Guidelines Manual:
(see "List ofDeparture Provisions "following the Index in the Guidelines Manual.) (Please specify)
D. State the basis for the departure. (Use Section VIII ifnecessary)

Coercion and Duress
Diminished Capacity
Public Welfare
Voluntary Disclosure of Offense
High-Capacity, Semiautomatic Weapon
Violent Street Gang
Aberrant Behavior
Dismissed and Uncharged Conduct
Sex Offender Characteristics
Discharged Terms of Imprisonment
Unauthorized Insignia
Early Disposition Program (EDP)

Case 4:17-cr-00669 Document 101 Filed on 11/26/19 in TXSD Page 3 of 4
A0 245B (Rev. 09/19)

Judgment in a Criminal Case
Attachment (Page 3) - Statement of Reasons

Not for Public Disclosure
Judgment — Page

DEFENDANT:
CASE NUMBER:
DISTRICT

3

of

4

JULIA ANN POFF
4:17CR00669-001
SOUTHERN DISTRICT OF TEXAS

STATEMENT OF REASONS
VI. COURT DETERMINATION FOR A VARIANCE (Ifapplicable)
A. The sentence imposed is: (Check only one)
CD above the guideline range
D below the guideline range
B. Motion for a variance before the court pursuant to: (Check all that apply and specify reasonfs) in sections C and D)
1. Plea Agreement
D binding plea agreement for a variance accepted by the court
D plea agreement for a variance, which the court finds to be reasorable
D plea agreement that states that the government will not oppose a defense motion for a variance
2. Motion Not Addressed in a Plea Agreement
CD government motion for a variance
□ defense motion for a variance to which the government did not object
CD defense motion for a variance to which the government objected
D joint motion by both patties
3. Other
D Other than a plea agreement or motion by the parties for a variance
C.

18 U.S.C. § 3553(a) and other reason(s) for a variance (Check all that apply)
□ The nature and circumstances of the offense pursuant to 18 U.S.C. § 3553(aXl)
CD Mens Rea
D Extreme Conduct
D Dismissed/Uncharged Conduct
CD Role in the Offense
CD Victim Impact
□ General Aggravating or Mitigating Factors: (Specify)_________________
□ The history and characteristics of the defendant pursuant to 18 U.S.C. § 3S53(aXl)
CD Aberrant Behavior
CD Lack of Youthful C uidance
CD Age
CD Mental and Emotional Condition
D Charitable Service/Good Works
D Military Service
CD Community Ties
□ Non-Violent Offender
CD Diminished Capacity
□ Physical Condition
CD Drug or Alcohol Dependence
□ Pre-sentence Rehat ilitation
□ Employment Record
CD Remorse/Lack of Remorse
D Family Ties and Responsibilities
CD Other: (Specify)____________
D Issues with Criminal History: (Specify)
CD To reflect the seriousness of the offense, to promote respect for the law, and to provide just punishment for the offense
(18 U.S C. § 3553(aX2XA))
□ To afford adequate deterrence to criminal conduct (18 U.S.C. § 3553(aX2XB))
□ To protect the public from further crimes of the defendant (18 U.S.C. 5 3553(aX2XC))
□ To provide the defendant with needed educational or vocational training (18 U.S.C. § 3553(aX2XD))
□ To provide the defendant with medical care (18 U.S.C. § 3553(aX2Xt'))
□ To provide the defendant with other correctional treatment in the most effective manner (18 U.S.C. § 3553(aX2XD))
□ To avoid unwarranted sentencing disparities among defendants (18 U.S.C. § 3553(aX6)) (Specify in section D)
CD To provide restitution to any victims of the offense (18 U.S.C. § 3553l aX7))
□ Acceptance of Responsibility
□ Conduct Pre-trial/C n Bond
□ Cooperation Without Government Motion for Departure
□ Early Plea Agreement
□ Global Plea Agreement
CD Time Served (not counted in sentence)
D Waiver of Indictment
CD Waiver of Appeal
D Policy Disagreement with the Guidelines (Kimbrough v. U S., S52 U.S. 85 (2007): (Specify)
CD

Other: (Specify)

D. State the basis for a variance. (Use Section VU! ifnecessary)

I

Case 4:17-cr-00669 Document 101 Filed on 11/26/19 in TXSD Page 4 of 4
;

AO 245B (Rev. 09/19)

Judgment in a Criminal Case
Attachment (Page 4) - Statement of Reasons

Not for Public Disclosure
Judgment — Page

DEFENDANT:
CASE NUMBER:
DISTRICT

4

of

4

JULIA ANN POFF
4:17CR00669-001
SOUTHERN DISTRICT OF TEXAS

STATEMENT OF REASONS
VII. COURT DETERMINATIONS OF RESTITUTION
A.

□

B.

Total Amount of Restitution: S9.700

C.

Restitution not ordered: (Check only one)

;
:

i
i

;

1.

D

For offenses for which restitution is otherwise mandatory undet 18 U.S.C. § 3663A, restitution is not ordered because the number of identifiable
victims is so large as to make restitution impracticable under 18 U.S.C. § 3663A(c)(3XA).

2.

O

For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A, restitution is not ordered because determining complex issues
of fact and relating them to the cause or amount of the victims’ losses would complicate or prolong the sentencing process to a degree that the need
to provide restitution to any victim would be outweighed by the burden on the sentencing process under 18 U.S.C. § 3663A(cX3XB)-

3.

d

For other offenses for which restitution is authorized under 18 U.S.C. § 3663 and/or required by the sentencing guidelines, restitution is not ordered
because the complication and prolongation of the sentencing process resulting from the fashioning of a restitution order outweigh the need to
provide restitution to any victims under 18 U.S.C. § 3663(aXlX3X'>)

4.

□

For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248, 2259, 2264,2327 or 3663A, restitution is not ordered
because the victim(s)’ losses were not ascertainable (18 U.S.C. § 3664(d)(5)).

5.

□

For offenses for which restitution is otherwise mandatory undet 18 U.S.C. §§ 1593, 2248, 2259, 2264, 2327 or 3663A, restitution is not ordered
because the victim(s) elected to not participate in any phase of d Mermining the restitution order (18 U.S.C. § 3664(gX 1 ))•

6.

D

Restitution is not ordered for other reasons: (Explain)

D. □
l

;
i
i

!

;

VIII.

Restitution Not Applicable.

Partial restitution is ordered for these reasons (18 U.S.C. § 3553(c)):

ADDITIONAL BASIS FOR THE SENTENCE IN THIS CASE (Ifapplicable)
Sections I, II, III, IV, and VII of the Statement of Reasons form must be completed in all felony cases.

Defendant’s Soc. Sec. No.: XXX-XX-8858
Defendant’s Date of Birth: 07/30/1971

November 18,2019
Date of Imposition of Judgment

City and State of Defendant’s Residence:
Spring, Texas
Signature of Judge
VANESSA D. GILMORE
UNITED STATES DISTRICT JUDGE
Name and Title of Judge
Date

s

ii

::

I

ii ru* l

Case: 19-20853

Document: 00515649000

Page: 1

Date Filed: 11/23/2020

fHntteb States Court of Appeals
for tfje jFtftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
November 23, 2020

No. 19-20853
Conference Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Julia Ann Poff,
Defendant—Appellant.

Appeal from the United States District Court
for the Southern District of Texas
No. 4:17-CR-669-l

Before Smith, Stewart, and Higginson, Circuit Judges.
Per Curiam:*
The attorney appointed to represent Julia Poff has moved to withdraw
and has filed a brief per Anders v. California, 386 U.S. 738 (1967), and United
States v. Flores, 632 F.3d 229 (5th Cir. 2011). Poff has filed a response. The
record is not sufficiently developed to allow us to make a fair evaluation of

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this opin­
ion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

Case: 19-20853

Document: 00515649000

Page: 2

Date Filed: 11/23/2020

No. 19-20853

Poff’s claims of ineffective assistance of counsel, which we decline to con­
sider without prejudice to collateral review. See United States v. Isgar,
739 F.3d 829, 841 (5th Cir. 2014).
We have reviewed counsel’s brief, relevant portions of the record, and
PofFs response. We concur with counsel’s assessment that the appeal pre­
sents no nonfrivolous issue for appellate review. Accordingly, the motion to
withdraw is GRANTED, counsel is excused from further responsibilities
herein, and the appeal is DISMISSED. SeeSTU Cir. R. 42.2. Poff’s prose
motions are DENIED.

2

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20862

In re: JULIA ANN POFF,
Petitioner

Petition for a Writ of Mandamus to the
United States District Court for the
Southern District of Texas

Before HIGGINBOTHAM, SOUTHWICK, and WILLETT, Circuit Judges.
PER CURIAM:
Julia Ann Poff, federal prisoner # 30835-479, has filed in this court a pro
se petition for a writ of mandamus and a motion requesting leave to file her
mandamus petition in forma pauperis (IFP). She has also filed an emergency
motion under Rule 23 of the Federal Rules of Appellate Procedure, which
requests a stay of any transfer of custody, and which was docketed as a motion
for release pending resolution of this matter and pending a ruling on a 28
U.S.C. § 2241 habeas petition.

The motion for leave to proceed IFP is

GRANTED.
Poff pleaded guilty pursuant to a written plea agreement on July 1, 2019,
to one count of transportation of explosives with intent to kill, injure, and
intimidate based on her 2016 mailing of an improvised explosive device to
President Barack Obama. Other charges, including two relating to the mailing
of explosive devices to Texas Governor Greg Abbott and the Acting
Commissioner of Social Security, were dismissed. The district court sentenced

A

II

.H §1
I

No. 19-20862
Poff to 120 months in prison and entered judgment on November 27, 2019, and
an amended judgment on February 13, 2020. Poff filed a notice of appeal, and
that appeal is pending in No. 19-20853. Nevertheless, in December 2019, she
filed the instant mandamus petition raising numerous challenges to her
conviction and sentence. In her petition, she also complains that the district
court has not ruled on a § 2241 petition for habeas corpus relief in which she
challenged her pretrial detention and contends that while incarcerated, she
has been denied visitation rights and subjected to unconstitutional conditions.
Poff asserts that she is entitled to emergency mandamus relief because the
time for the ordinary appeal process will further punish her without due
process.
As a threshold matter, because Poff is currently represented by
appointed counsel on appeal of her conviction, we question whether she may
proceed pro se to seek relief relating to that case. See McKaskle v. Wiggins,
465 U.S. 168, 183 (1984); United States v. Daniels, 572 F.2d 535, 540 (5th Cir.
1978). In any case, she is not entitled to mandamus relief.
“Mandamus is an extraordinary remedy that should be granted only in
the clearest and most compelling cases.” In re Willy, 831 F.2d 545, 549 (5th
Cir. 1987). A party seeking mandamus relief must show both that she has no
other adequate means to obtain the requested relief and that she has a “clear
and indisputable” right to the writ. Id. (internal quotation marks and citation
omitted). Mandamus is not a substitute for appeal. Id. “Where an interest
can be vindicated through direct appeal after a final judgment, this court will
ordinarily not grant a writ of mandamus.” Campanioni v. Barr, 962 F.2d 461,
464 (5th Cir. 1992); see also Roche v. Evaporated Milk Ass’n, et al., 319 U.S. 21,
28-29 (1943) (“Ordinarily mandamus may not be resorted to as a mode of

2

No. 19-20862
review where a statutory method of appeal has been prescribed or to review an
appealable decision of record.”)
Given that Poffs pending appeal will afford her the ability to seek relief,
we see no reason to permit her to proceed by way of the extraordinary remedy
of mandamus. Her conclusory assertions that the ordinary appeal process will
further punish her do not alter this determination.

With respect to her

complaints regarding prison conditions and denial of visitation, Poff has not
shown that she lacks other adequate means to obtain relief, nor do her
uncorroborated assertions establish a clear and indisputable right to the writ.
See Willy, 831 F.2d at 549.
As for her complaint that the district court has delayed ruling in her
separate § 2241 habeas action, Poff v. Smith, No. 4:18-cv-4450 (S.D. Tex.),
undue delay in adjudication of a case may be a basis for mandamus relief, see
Will v. Calvert Fire Ins. Co., 437 U.S. 655, 661-62 (1978). However, Poffs
habeas petition challenged the legality of her pretrial detention on the basis
that her rights of due process and to a speedy trial were being violated due to
the length of time she was awaiting trial. She filed the petition after the
district court twice denied motions by Poffs counsel to revoke a pretrial
detention order. She then pleaded guilty and is now incarcerated pursuant to
that plea. We decline to order the district court to rule on what is now a moot
issue. See, e.g., Fassler v. United States, 858 F.2d 1016, 1018 (5th Cir. 1988)
(concluding that a § 2241 petition seeking pretrial release was rendered moot
by conviction). Any remedy for alleged pretrial constitutional violations should
be sought on appeal of her conviction, although we offer no opinion on any such
claims.

3

No. 19-20862
The petition for a writ of mandamus is DENIED. Poffs motion seeking
a stay or release pending disposition of her habeas petition and of this petition
. for a writ of mandamus is also DENIED.

4

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JULIA GOTTSELIG POFF,
(#30835-479)
Petitioner,
v.

Respondent.

David J. Bradley, Clerk

§
§
§
§
§

§

WARDEN SMITH,

November 20, 2020

CIVIL ACTION NO. 4:18-cv-4450

§
§
§
§

ORDER OF DISMISSAL
Julia Gottselig Poff, a federal inmate, filed a petition for a writ of habeas corpus
under 28 U.S.C. § 2241, challenging her detention pending trial in USA v. Poff, Crim. No.
4:17-cr-0669-l (S.D. Tex.). The respondent has filed a motion to dismiss the petition as
moot, and Poff has moved for summary judgment in response. (Dkt. Nos. 15, 20). After
considering the motions, the record, and the applicable law, the Court will grant the
respondent’s motion and dismiss this case as moot. The reasons are set forth below.
I.

Background
On November 9, 2017, a grand jury indicted Poff in criminal cause number 4:17-

CR-669. On March 28, 2018, the grand jury returned a Superseding Indictment. In
November 2018, Poff filed a pro se petition for a writ of habeas corpus under 28 U.S.C. §
2241 to challenge her extended pretrial detention. Subsequently, the grand jury returned a
Second Superseding Indictment, and, on July 1, 2019, Poff pleaded guilty to Count Seven
of the Second Superseding Indictment for Transportation of Explosives with Intent to Kill,
\\
'r

if

Injure, and Intimidate a Person in violation of 18 U.S.C. § 844(d), and the remaining counts
were dismissed on the motion of the United States. The federal district court sentenced
Poff to 120 months’ imprisonment and a 3-year term of supervised release. Poff s direct
appeal remains pending before the Fifth Circuit Court of Appeals. USA v. Poff, Appeal
No. 19-20853 (5th Cir.).
II.

Analysis
In her petition, Poff alleges that her pretrial confinement is illegal because the length

of confinement violates her Fifth Amendment right to due process and her Sixth
Amendment right to a speedy trial. Poff contends that the indictment should be dismissed
with prejudice or, alternatively, she should be released from custody pending trial. The
respondent moves for dismissal on the ground that Poff s guilty plea renders moot any
question regarding the legality of her confinement.
The United States Supreme Court has explained that a case becomes moot if it “no
longer presents] a case or controversy under Article III, § 2, of the Constitution.” Spencer
v. Kemna, 523 U.S. 1, 7 (1998). Under the case or controversy requirement, “[t]he parties
must continue to have a ‘personal stake in the outcome’ of the lawsuit.’” Id. (quoting Lewis
v. Continental Bank Corp., 494 U.S. 472, 477-78 (1990)). “This means that, throughout
the litigation, the plaintiff ‘must have suffered, or be threatened with, an actual injury
traceable to the defendant and likely to be redressed by a favorable judicial decision.’” Id.
(quoting Lewis, 494 U.S. at 477). “[Cjlaims for federal habeas relief for pretrial issues are
mooted” once a petitioner is convicted. Yohey v. Collins, 985 F.2d 222, 228-29 (5th Cir.
1993) (citations omitted); seeFasslerv. United States, 858 F.2d 1016, 1018(5thCir. 1988)
2

(because the defendant was legally in federal custody, his request for release from pretrial
confinement was moot); United States v. O’Shaughnessy, 772 F.2d 112,113 (5th Cir. 1985)
(per curiam) (issues related to the defendant’s right to pretrial bail and the government’s
efforts to assure pretrial detention without bail were mooted by defendant’s subsequent
conviction on his plea and sentence). The Court concludes that Poff s § 2241 petition is
mooted by her subsequent conviction (on her guilty plea) and sentence and must be
dismissed.
III.

Conclusion and Order
For the foregoing reasons, the Court ORDERS as follows:
1.

The respondent’s motion to dismiss, (Dkt. No. 15), is GRANTED.

2.

Poff s motion for summary judgment, (Dkt. No. 20), is DENIED.

3.

Any and all remaining pending motions are DENIED as moot.

4.

The habeas corpus petition, (Dkt. No. 1), is DISMISSED WITHOUT
PREJUDICE.

SIGNED at Houston, Texas, on November 19, 2010.

L.
H
;tt
UNITED STATES DISTRICT JUDGE

3

§ 3142. Release or detention of a defendant pending trial
(a) In general. Upon the appearance before a judicial officer of a person charged with an offense,
the judicial officer shall issue an order that, pending trial, the person be—
(1) Released on personal recognizance or upon execution of an unsecured appearance bond,
under subsection (b) of this section;
(2) released on a condition or combination of conditions under subsection (c) of this section;
(3) temporarily detained to permit revocation of conditional release, deportation, or exclusion
under subsection (d) of this section; or
(4) detained under subsection (e) of this section.
(b) Release on personal recognizance or unsecured appearance bond. The judicial officer
shall order the pretrial release of the person on personal recognizance, or upon execution of an
unsecured appearance bond in an amount specified by the court, subject to the condition that the person
not commit a Federal, State, or local crime during the period of release and subject to the condition that
the person cooperate in the collection of a DNA sample from the person if the collection of such a
sample is authorized pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42
U.S.C. 14135a), unless the judicial officer determines that such release will not reasonably assure the
appearance of the person as required or will endanger the safety of any other person or the community.

(c) Release on conditions.
(1) If the judicial officer determines that the release described in subsection (b) of this section will
not reasonably assure the appearance of the person as required or will endanger the safety of any other
person or the community, such judicial officer shall order the pretrial release of the person—
(A) subject to the condition that the person not commit a Federal, State, or local crime
during the period of release and subject to the condition that the person cooperate in the collection of a
DNA sample from the person if the collection of such a sample is authorized pursuant to section 3 of the
DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C. 14135a); and
(B) subject to the least restrictive further condition, or combination of conditions, that
such judicial officer determines will reasonably assure the appearance of the person as required and the
safety of any other person and the community, which may include the condition that the person—
(i) remain in the custody of a designated person, who agrees to assume
supervision and to report any violation of a release condition to the court, if the designated person is able
reasonably to assure the judicial officer that the person will appear as required and will not pose a danger
to the safety of any other person or the community;
(ii) maintain employment, or, if unemployed, actively seek employment;
(iii) maintain or commence an educational program;

uses

1

© 2021 Matthew Bender & Company, Inc., a member of die LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

A' . IHuM

P

30835479

(iv) abide by specified restrictions on personal associations, place of abode, or
travel;
(v) avoid all contact with an alleged victim of the crime and with a potential
witness who may testify concerning the offense;
(vi) report on a regular basis to a designated law enforcement agency, pretrial
services agency, or other agency;
(vii) comply with a specified curfew;
(viii) refrain from possessing a firearm, destructive device, or other dangerous
weapon;
(ix) refrain from excessive use of alcohol, or any use of a narcotic drug or other
controlled substance, as defined in section 102 of the Controlled Substances Act (21 U.S.C. 802), without
a prescription by a licensed medical practitioner;
(x) undergo available medical, psychological, or psychiatric treatment, including
treatment for drug or alcohol dependency, and remain in a specified institution if required for that
purpose;
(xi) execute an agreement to forfeit upon failing to appear as required, property
of a sufficient unencumbered value, including money, as is reasonably necessary to assure the
appearance of the person as required, and shall provide the court with proof of ownership and the value
of the property along with information regarding existing encumbrances as the judicial office may require;
(xii) execute a bail bond with solvent sureties; who will execute an agreement to
forfeit in such amount as is reasonably necessary to assure appearance of the person as required and
shall provide the court with information regarding the value of the assets and liabilities of the surety if
other than an approved surety and the nature and extent of encumbrances against the surety’s property;
such surety shall have a net worth which shall have sufficient unencumbered value to pay the amount of
the bail bond;
(xiii) return to custody for specified hours following release for employment,
schooling, or other limited purposes; and
(xiv) satisfy any other condition that is reasonably necessary to assure the
appearance of the person as required and to assure the safety of any other person and the community.

In any case that involves a minor victim under section 1201, 1591, 2241, 2242, 2244(a)(1),
2245, 2251, 2251A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(l), 2252A(a)(2),
2252A(a)(3), 2252A(a)(4), 2260, 2421, 2422, 2423, or 2425 of this title [18 USCS § 1201, 1591,
2241, 2242, 2244(a)(1), 2245, 2251, 2251A, 2252(a)(1), (2), (3), 2252A(a)(l), (2), (3), (4),
2260, 2421, 2422, 2423, or 2425], or a failure to register offense under section 2250 of this title
[18 USCS § 2250], any release order shall contain, at a minimum, a condition of electronic
monitoring and each of the conditions specified at subparagraphs (iv), (v), (vi), (vii), and (viii).
USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

30835479

(2) The judicial officer may not impose a financial condition that results in the pretrial detention
of the person.
(3) The judicial officer may at any time amend the order to impose additional or different
conditions of release.

(d) Temporary detention to permit revocation of conditional release, deportation, or
exclusion. If the judicial officer determines that—
(1) such person—
(A) is, and was at the time the offense was committed, on—
(i) release pending trial for a felony under Federal, State, or local law;
(ii) release pending imposition or execution of sentence, appeal of sentence or
conviction, or completion of sentence, for any offense under Federal, State, or local law; or
(iii) probation or parole for any offense under Federal, State, or local law; or
(B) is not a citizen of the United States or lawfully admitted for permanent residence, as
defined in section 101(a)(20) of the Immigration and Nationality Act (8 U.S.C. 1101 (a)(20)); and
(2) the person may flee or pose a danger to any other person or the community;

.

such judicial officer shall order the detention of the person, for a period of not more than ten
days, excluding Saturdays, Sundays, and holidays, and direct the attorney for the Government to
notify the appropriate court, probation or parole official, or State or local law enforcement
official, or the appropriate official of the Immigration and Naturalization Service. If the official
fails or declines to take the person into custody during that period, the person shall be treated'in
accordance with the other provisions of this section, notwithstanding the applicability of other
provisions of law governing release pending trial or deportation or exclusion proceedings. If
temporary detention is sought under paragraph (1)(B) of this subsection, the person has the
burden of proving to the court such person’s United States citizenship or lawful admission for
permanent residence.
(e) Detention.
(1) If, after a hearing pursuant to the provisions of subsection (f) of this section, the judicial
officer finds that no condition or combination of conditions will reasonably assure the appearance of the
person as required and the safety of any other person and the community, such judicial officer shall order
the detention of the person before trial.
(2) In a case described in subsection (f)(1) of this section, a rebuttable presumption arises that
no condition or combination of conditions will reasonably assure the safety of any other person and the
community if such judicial officer finds that—

uses

3

© 202 i Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

30835479

(A) the person has been convicted of a Federal offense that is described in subsection
(f)(1) of this section, or of a State or local offense that would have been an offense described in
subsection (f)(1) of this section if a circumstance giving rise to Federal jurisdiction had existed;
(B) the offense described in subparagraph (A) was committed while the person was on
release pending trial for a Federal, State, or local offense; and
(C) a period of not more than five years has elapsed since the date of conviction, or the
release of the person from imprisonment, for the offense described in subparagraph (A), whichever is
later.
(3) Subject to rebuttal by the person, it shall be presumed that no condition or combination of
conditions will reasonably assure the appearance of the person as required and the safety of the
community if the judicial officer finds that there is probable cause to believe that the person committed—
(A) an offense for which a maximum term of imprisonment of ten years or more is
prescribed in the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import
and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS § 70501 et seq.];
(B) an offense under section 924(c), 956(a), or 2332b of this title [18 USCS § 924(c),
956(a), or 2332b];
(C) an offense listed in section 2332b(g)(5)(B) of title 18, United States Code [18 USCS
§ 2332b(g)(5)(B)], for which a maximum term of imprisonment of 10 years or more is prescribed;
(D) an offense under chapter 77 of this title [18 USCS §§ 1581 et seq.] for which a
maximum term of imprisonment of 20 years or more is prescribed; or
2244(a)(1),
2252A(a)(3),
2242, 2244,
2252A(a)(3),

(E) an offense involving a minor victim under section 1201, 1591, 2241, 2242,
2245, 2251, 2251 A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1), 2252A(a)(2),
2252A(a)(4), 2260, 2421, 2422, 2423, or 2425 of this title [18 USCS § 1201, 1591, 2241,
(a)(1), 2245, 2251, 2251 A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1), 2252A(a)(2),
2252A(a)(4), 2260, 2421, 2422, 2423, or 2425],

(f) Detention hearing. The judicial officer shall hold a hearing to determine whether any condition
or combination of conditions set forth in subsection (c) of this section will reasonably assure the
appearance of the person as required and the safety of any other person and the community—
(1) upon motion of the attorney for the Government, in a case that involves—
(A) a crime of violence, a violation of section 1591 [18 USCS § 1591], or an offense
listed in section 2332b(g)(5)(B) [18 USCS § 2332b(g)(5)(B)] for which a maximum term of imprisonment
of 10 years or more is prescribed;
(B) an offense for which the maximum sentence is life imprisonment or death;
(C) an offense for which a maximum term of imprisonment of ten years or more is
prescribed in the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import
and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.];

USCS

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

30835479

(D) any felony if the person has been convicted of two or more offenses described in
subparagraphs (A) through (C) of this paragraph, or two or more State or local offenses that would have
been offenses described in subparagraphs (A) through (C) of this paragraph if a circumstance giving rise
to Federal jurisdiction had existed, or a combination of such offenses; or
(E) any felony that is not otherwise a crime of violence that involves a minor victim or
that involves the possession or use of a firearm or destructive device (as those terms are defined in
section 921 [18 USCS § 921]), or any other dangerous weapon, or involves a failure to register under
section 2250 of title 18, United States Code [18 USCS § 2250]; or
(2) upon motion of the attorney for the Government or upon the judicial officer's own motion, in a
case that involves—
(A) a serious risk that such person will flee; or
(B) a serious risk that the person will obstruct or attempt to obstruct justice, or threaten,
injure, or intimidate, or attempt to threaten, injure, or intimidate, a prospective witness or juror.

The hearing shall be held immediately upon the person’s first appearance before the judicial
officer unless that person, or the attorney for the Government, seeks a continuance. Except for
good cause, a continuance on motion of the person may not exceed five days (not including any
intermediate Saturday, Sunday, or legal holiday), and a continuance on motion of the attorney for
the Government may not exceed three days (not including any intermediate Saturday, Sunday, or
legal holiday). During a continuance, the person shall be detained, and the judicial officer, on
motion of the attorney for the Government or sua sponte, may order that, while in custody, a
person who appears to be a narcotics addict receive a medical examination to determine whether
such person is an addict. At the hearing, the person has the right to be represented by counsel,
and, if financially unable to obtain adequate representation, to have counsel appointed. The person
shall be afforded an opportunity to testify, to present witnesses, to cross-examine witnesses who
appear at the hearing, and to present information by proffer or otherwise. The rules concerning
admissibility of evidence in criminal trials do not apply to the presentation and consideration of
information at the hearing. The facts the judicial officer uses to support a finding pursuant to
subsection (e) that no condition or combination of conditions will reasonably assure the safety of
any other person and the community shall be supported by clear and convincing evidence. The
person may be detained pending completion of the hearing. The hearing may be reopened, before
or after a determination by the judicial officer, at any time before trial if the judicial officer finds
that information exists that was not known to the movant at the time of the hearing and that has a
material bearing on the issue whether there are conditions of release that will reasonably assure
the appearance of the person as required and the safety of any other person and the community.
(g) Factors to be considered.
The judicial officer shall, in determining whether there are
conditions of release that will reasonably assure the appearance of the person as required and the safety
of any other person and the community, take into account the available information concerning—

USCS

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

30835479

(1) the nature and circumstances of the offense charged, including whether the offense is a
crime of violence, a violation of section 1591 [18 USCS § 1591], a Federal crime of terrorism, or
involves a minor victim or a controlled substance, firearm, explosive, or destructive device;
(2) the weight of the evidence against the person;
(3) the history and characteristics of the person, including—
(A) the person’s character, physical and mental condition, family ties, employment,
financial resources, length of residence in the community, community ties, past conduct, history relating
to drug or alcohol abuse, criminal history, and record concerning appearance at court proceedings; and
(B) whether, at the time of the current offense or arrest, the person was on probation, on
parole, or on other release pending trial, sentencing, appeal, or completion of sentence for an offense
under Federal, State, or local law; and
(4) the nature and seriousness of the danger to any person or the community that would be
posed by the person’s release. In considering the conditions of release described in subsection
(c)(1)(B)(xi) or (c)(1)(B)(xii) of this section, the judicial officer may upon his own motion, or shall upon the
motion of the Government, conduct an inquiry into the source of the property to be designated for
potential forfeiture or offered as collateral to secure a bond, and shall decline to accept the designation,
or the use as collateral, of property that, because of its source, will not reasonably assure the appearance
of the person as required.
(h) Contents of release order.
section, the judicial officer shall—

In a release order issued under subsection (b) or (c) of this

(1) include a written statement that sets forth all the conditions to which the release is subject, in
a manner sufficiently clear and specific to serve as a guide for the person’s conduct; and
(2) advise the person of—
(A) the penalties for violating a condition of release, including the penalties for
committing an offense while on pretrial release;
(B) the consequences of violating a condition of release, including the immediate
issuance of a warrant for the person’s arrest; and
(C) sections 1503 of this title [18 USCS § 1503] (relating to intimidation of witnesses,
jurors, and officers of the court), 1510 [18 USCS § 1510] (relating to obstruction of criminal
investigations), 1512 [18 USCS § 1512] (tampering with a witness, victim, or an informant), and 1513 [18
USCS § 1513] (retaliating against a witness, victim, or an informant).
(i) Contents of detention order. In a detention order issued under subsection (e) of this section,
the judicial officer shall—
(1) include written findings of fact and a written statement of the reasons for the detention;
(2) direct that the person be committed to the custody of the Attorney General for confinement in

USCS

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

30835479

a corrections facility separate, to the extent practicable, from persons awaiting or serving sentences or
being held in custody pending appeal;
(3) direct that the person be afforded reasonable opportunity for private consultation with
counsel; and
(4) direct that, on order of a court of the United States or on request of an attorney for the
Government, the person in charge of the corrections facility in which the person is confined deliver the
person to a United States marshal for the purpose of an appearance in connection with a court
proceeding.

The judicial officer may, by subsequent order, permit the temporary release of the person, in
the custody of a United States marshal or another appropriate person, to the extent that the
judicial officer determines such release to be necessary for preparation of the person’s defense or
for another compelling reason.
(j) Presumption of innocence. Nothing in this section shall be construed as modifying or limiting
the presumption of innocence.

J
\

uses

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions

.

and terms and conditions of the Matthew Bender Master Agreement.

30835479

